No. 19-1186
IN THE

In the Supreme Court of the United States
JOSHUA BAKER, DIRECTOR, SOUTH CAROLINA
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
Petitioner,
v.
PLANNED PARENTHOOD SOUTH ATLANTIC, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Alice Clapman, counsel for Respondents and a member of the Bar of this
Court, certify that on this 29th day of July, 2020, I caused this Brief in Opposition to
be served by electronic means on the following:
John J. Bursch
Bursch Law PLLC
9339 Cherry Valley SE, #78
Caledonia, MI 49316
(616) 450-4235
jbursch@burschlaw.com
I further certify that all parties required to be served have been served.

/s/ Alice Clapman
Alice Clapman

